No. 21-351
IN THE

Supreme Court of the United States
COURTNEY WILD,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 4th day of October, 2021, I caused three copies of the Brief of Senator
Dianne Feinstein and Former Senators Jon Kyl and Orrin Hatch as Amici Curiae in
Support of Petitioner to be served by third-party commercial carrier on the counsel
identified below, and caused an electronic version to be transmitted to the counsel
identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties required
to be served have been served.
Paul G. Cassell
S.J. QUINNEY COLLEGE OF LAW
AT THE UNIVERSITY OF UTAH
383 South University Street
Salt Lake City, UT 84112
(801) 585-5202
cassellp@law.utah.edu

Brian H. Fletcher
Acting Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Petitioner
Counsel for Respondent

Bradley G. Hubbard

